No. 21-10

In the

Supreme Court of the United States
LORI BRAUN, ET AL.
Petitioner,
v.
BRIAN RAY BURKE, ET AL.
Respondents.
On Petition for a Writ of Certiorari
To the United States Court of Appeals
For the Eighth Circuit
BRIEF OF RESPONDENT
BRIAN RAY BURKE
IN OPPOSITION
BRIAN W. RAY
Counsel of Record
MATTHEW G. FRENCH
Associate Counsel
COLLINS, COLLINS &
RAY, P.A.
912 W. 4th St.
Little Rock, AR 72201
501-603-9911
brian@ccrlawfirm.com
Counsel for Respondent Brian Ray Burke

i
QUESTIONS PRESENTED
1. Whether there exists a split among the
Circuit Courts of Appeal on applying the
intent-to-harm standard or deliberate
indifference standard to cases of police
high-speed driving.
2. Whether a court reviewing high-speed
driving by a police officer should consider
the officer’s subjective belief that he is
responding
to
an
emergency
in
determining the level of culpability.

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED ................................i
TABLE OF AUTHORITIES .............................. iii
INTRODUCTION ................................................ 1
STATEMENT OF THE CASE ............................ 1
REASONS FOR DENYING THE PETITION .... 7
I.

CERTIORARI SHOULD BE DENIED
ON
THE
FIRST
QUESTION
PRESENTED. ........................................... 7

a. The claimed circuit split relies more on
factual differences among the cases
than
on
disagreement
about
application of the law. ............................ 8
b. Even when applying the standard that
Petitioner prefers, the result of this
case would not change. ......................... 24
II. CERTIORARI SHOULD BE DENIED
ON THE SECOND QUESTION
PRESENTED BECAUSE THERE IS
NO “OBJECTIVE” VS. “SUBJECTIVE”
SPLIT AMONG THE CIRCUIT
COURTS ................................................. 28
CONCLUSION .................................................. 30

iii
TABLE OF AUTHORITIES
Cases
Ashcroft v. al-Kidd, 563 U.S. 731 (2011). ......... 26
Bingue v. Prunchak, 512 F.3d 1169 (9th
Cir. 2008). ................................................. 13, 14
Browder v. City of Albuquerque, 787 F.3d
1076 (10th Cir. 2015). ............................ passim
Cnty. of Sacramento v. Lewis, 523 U.S.
833 (1998). .............................................. passim
Daniels v. Williams, 474 U.S. 327 (1986). .......... 7
Davidson v. Cannon, 474 U.S. 344 (1986). ......... 7
Dean v. McKinney, 976 F.3d 407 (4th Cir.
2020). .................................................. 17, 18, 29
Flores v. City of S. Bend, 997 F.3d 725
(7th Cir. 2021). ................................... 19, 20, 29
Green v. Post, 574 F.3d 1294 (10th Cir.
2009). ...................................................... passim
Helseth v. Burch, 258 F.3d 867 (8th Cir.
2001). .......................................................... 9, 10
Perez v. Unified Gov’t of Wyandotte
Cnty./Kansas City, Kan., 432 F.3d 1163
(10th Cir. 2005). ............................................. 21
Sauers v. Borough of Nesquehoning, 905
F.3d 711 (3d Cir. 2018). ......................... passim
Sitzes v. City of W. Memphis, 606 F.3d
461 (8th Cir. 2010). ................................ passim
Sitzes, 606 F.3d at 467. ..................................... 27
Terrell v. Larson, 396 F.3d 975 (8th Cir.
2005). ...................................................... passim

iv

Statutes
Ark. Code Ann. § 5-65-102. ................................. 5
Secondary Sources
1 The Oxford English Dictionary 602 (2d
ed. 1989). ........................................................ 24
Black’s Law Dictionary 119 (9th ed. 2009). ....... 24
U.S. Census Bureau Quickfacts: Garland
County, Arkansas, (2010)
https://www.census.gov/quickfacts/fact/
table/garlandcountyarkansas/PST04521
9. ....................................................................... 2

1
INTRODUCTION
The facts of this case are tragic. Two young
people lost their lives, and a dedicated police
officer was forced to retire due to his serious
injuries. While tragic, this case has been properly
adjudicated at both the District Court and
Circuit Court level. To try to create a controversy
for this Court’s review, Petitioner, Lori Braun,
attempts to paint the state of the law among the
Circuit Courts on the issue of high-speed police
driving as disparate and muddled. This could not
be further from the truth. Any appearance of
disparity between the decisions of the Circuit
Courts is illusory as the difference in result is
easily explained by the intensive, fact-based
analysis that is required in substantive due
process cases. Petitioner creates a false
“objective” vs. “subjective” test for claims of
emergency situations. These tests simply do not
exist, and the Circuit Courts are not split over
them. As there is no real split among the Circuit
Courts on any issue proposed by the Petitioner,
this Court should deny the Petition for Writ of
Certiorari.
STATEMENT OF THE CASE
On the evening of October 10, 2016,
Arkansas State Trooper Brian Ray Burke was
attending the scene of a hit and run accident at
the Pearcy Post Office along Highway 70 in
Garland County, Arkansas. Appellant App. 248.1
As he was reaching the end of his encounter with
1 References to “Appellant App.” and “Appellee’s
App.” are to page numbers of the Appellate Appendices
below.

2
the woman who complained of the accident, he
heard the wind resistance created by a fastapproaching vehicle. Id. Trooper Burke looked up
to witness a dark-colored SUV driving along
Highway 70 heading east toward the city of Hot
Springs at a high rate of speed with flashing
hazard lights. Id. Based on his training as an
officer, Trooper Burke estimated that the SUV
was traveling around 90 to 95 miles per hour. Id.
This was well above the posted speed limit of
fifty-five (55) miles per hour. Trooper Burke said
a few words in closing to the hit and run claimant
and returned to his patrol car. Id. at 253-54.
In that moment, Trooper Burke made the
decision to try and catch up to the SUV that he
believed was traveling nearly twice the posted
speed limit with flashing hazard lights, believing
that the SUV created a dangerous situation that
posed a risk to the public. Id. at 155. Trooper
Burke radioed to the deputies with the Garland
County Sheriff’s Office a description and
direction of the SUV to try to receive assistance
in stopping the vehicle. Id. at 251. Trooper Burke
sought assistance from the Garland County
Sheriff’s Office instead of the Arkansas State
Police because only two troopers were assigned to
all of Garland County, a large county consisting
of around 678 square miles of land.2 Id. at 232
and 252. Just as Trooper Burke monitors the
Garland County Sheriff’s Office radio frequency,
it is likely that the other State Trooper assigned

2 U.S. Census Bureau Quickfacts: Garland County,
Arkansas, (2010) https://www.census.gov/quickfacts/fact/
table/garlandcountyarkansas/PST045219.

3
to the county also heard his request for
assistance.
As he entered the two-lane highway,
Trooper Burke activated his emergency lights to
maneuver safely around some immediate local
traffic. Id. at 284. Once he was past the traffic,
Trooper Burke deactivated his emergency lights
and continued toward the city of Hot Springs to
catch up to the SUV. Id. at 254-55. Trooper Burke
safely passed multiple vehicles traveling in the
same direction without activating his emergency
lights and sirens. Id. at 256-57. Trooper Burke,
consistent with his training and the policies and
procedures of the Arkansas State Police, drove
above the posted speed limits without his
emergency lights and siren to catch up to the
speeding SUV and affect a stop. Id. at 366;
Appellee App. 41, 83 and 173.
Over the course of about eight miles,
Trooper Burke reached a maximum documented
speed of 113 miles per hour and had an average
speed of over 90 miles per hour. Rec. 14 (¶ 16). As
Trooper Burke approached the outer city limits
of Hot Springs, the road expanded to a four-way
highway and other vehicles were more present.3
Though Petitioner describes this area on the
outskirts of Hot Springs as “congested” and with
“significant traffic,” Pet. Writ Cert at 7, it is clear
to any objective eye that this is simply not the
case. It is evident in reviewing the video that
Trooper Burke maintained control of his vehicle,
3 The video can be accessed at this link provided
by Petitioner Braun: https://www.dropbox.com/sh/u7c79
hdnvqtld5q/AAAOG-4AUtij9WkxavIWoKNKa?dl=0.

4
even at high speeds, and could easily maneuver
around what traffic was present. Video.
Despite Petitioner’s claim that Trooper
Burke had to avoid 60 vehicles, Pet. Writ Cert at
9, the video shows that Trooper Burke only had
to maneuver around 13 vehicles including three
at the very beginning of his journey when he was
traveling at only a few miles per hour with his
emergency lights activated. Video. For most of
his about five-minute journey, roughly threeand-half minutes, the road is nearly deserted and
the only cars on the road are traveling in the
opposite direction. Video. Again, despite
Petitioner’s claim that Trooper Burke crossed the
center line of the road around 35 times, Pet. Writ
Cert. at 9, the video shows that Trooper Burke
only crossed the yellow center line nine times and
most of those times were when no other traffic
was present. Video. By every measure, the video
shows Trooper Burke was always in complete
control of his police vehicle.
A short time before the accident, Trooper
Burke relocated the SUV with flashing hazard
lights and activated his radar gun to attempt to
determine its speed. Appellant App. 272-73. At
the intersection of Airport Road/U.S. 70 and
Kleinshore Road, Cassandra Braun was the
passenger in a car being driven by her boyfriend,
Tavon Desean Jenkins, that was sitting in the
turning lane trying to make a left-hand turn onto
Kleinshore Road. Id. at 30 (¶ 89). Both Ms. Braun
and Mr. Jenkins had been drinking alcohol that
night, and neither was wearing a seatbelt.
Appellee App. 131-32, and 154. Mr. Jenkins had
a reported blood alcohol content of 0.10, well over

5
the legal limit of 0.08 in the State of Arkansas.4
Id. at 154. Under Arkansas law, someone with a
blood alcohol content of 0.08 or more is
considered intoxicated “to such a degree that the
driver’s reactions, motor skills, and judgment are
substantially altered” causing the driver to
“constitute[] a clear and substantial danger of
physical injury or death to himself . . . or another
person.” Ark. Code Ann. § 5-65-102(4).
As Trooper Burke approached the
intersection, Mr. Jenkins, either not noticing
Trooper Burke approaching or failing to
appreciate the speed at which he was
approaching, turned into Trooper Burke’s lane of
travel. Appellant App. 30 (¶ 89), and 274. Trooper
Burke did not have time to stop and crashed into
the car driven by Mr. Jenkins at a speed of 98
miles per hour. Id. at 155; Appellee App. 132. The
force of the impact combined with the fact that
neither was wearing a seatbelt caused both Mr.
Jenkins and Ms. Braun to be ejected from the car.
Appellee App. 132. Tragically, neither survived
the accident.
Trooper Burke was seriously injured during
the accident and had to medically retire from the
Arkansas State Police based on his injuries.
Appellant App. 314-15. Colonel William J.
Bryant, Director of the Arkansas State Police,
sent Trooper Burke a congratulatory letter upon
his medical retirement thanking him for his
years of service and noting that “[Burke] will be
dearly missed.” Appellee App. 160.

4

Ark. Code Ann. § 5-65-103(a)(2).

6

Trooper Burke was in “immediate pursuit”
of the suspected offender under the policies and
guidelines of the Arkansas State Police:
The officer driving an authorized
emergency vehicle in immediate
pursuit is exempt from posted speed
limits. Immediate pursuit means
the initial approach to a violator for
the purposes of initiating a traffic
stop or situations where a silent
response
is
appropriate
or
necessary.
The
driver
must
determine whether the emergency
equipment should be activated
based on the totality of the
circumstances,
while
always
exercising ordinary care for the
safety of all persons.
Id. at 452 (internal citations omitted). When
Trooper Burke drove above the speed limit
without lights and sirens, he did so within the
boundaries of his training and the policies and
guidelines of the Arkansas State Police. Id.
Trooper Burke believed that the SUV
traveling at a high rate of speed with hazard
lights activated, with a likely untrained driver,
posed a serious risk to the motoring public and
created a highly dangerous situation. Id. at 155.
He believed, in keeping with his duties as a
public servant, that he needed to act to end an
emergently dangerous situation and only had
about 45 to 50 seconds between the time he saw
the SUV to the time he returned to his patrol car

7
and made the decision to pursue. Id. at 155, 253,
and Video. He did not have the luxury of
hindsight and made what he believed was the
best decision based on the information he had
available.
REASONS FOR DENYING THE PETITION
I.

CERTIORARI SHOULD BE DENIED ON
THE FIRST QUESTION PRESENTED.
The Fourteenth Amendment’s Due Process
Clause guarantees citizens to be free from
arbitrary government action that “shocks the
conscience.” Cnty. of Sacramento v. Lewis, 523
U.S. 833, 847 (1998). These types of claims are
analyzed under a substantive due process
analysis. Id. at 843. This Court’s “cases dealing
with abusive executive action have repeatedly
emphasized that only the most egregious official
conduct can be said to be ‘arbitrary in the
constitutional sense.’” Id. at 846.
To establish a substantive due process
violation, the plaintiff must show that the
officer’s behavior was “so egregious, so
outrageous, that it may fairly be said to shock the
contemporary conscience.” Id. at 847 n. 8. The
constitutional concept of “conscious shocking”
lies toward the “ends of the tort law’s spectrum of
culpability.” Id. at 848. This Court held that “the
Constitution does not guarantee due care on the
part of state officials; liability for negligently
inflicted harm is categorically beneath the
threshold of constitutional due process.” Id. at
848; see also Daniels v. Williams, 474 U.S. 327,
328 (1986); Davidson v. Cannon, 474 U.S. 344,
348 (1986). The Court clarified that “conduct

8
intended to injure in some way unjustifiable by
any government interest is the sort of official
action most likely to rise to the conscienceshocking level.” Lewis, 523 U.S. at 849. Whether
conduct that is less than intentional, such as
recklessness is a much closer call for a court. Id.
The Court has left the door open for less than
intentional conduct to be considered “conscious
shocking,” but only when the conduct is
especially egregious. Id. Deliberately indifferent
conduct may be enough to be considered
“conscious shocking” Id. The Court cautions,
however, that “deliberate indifference that
shocks in one environment may not be so
patently egregious in another.” Id. The core of
deliberate indifference is that actual deliberation
was practical in the circumstances. Id. Taking
this into account, the Court in Lewis held that
“high-speed chases with no intent to harm
suspects physically or to worsen their legal plight
do not give rise to liability under the Fourteenth
Amendment.” Id. at 854.
a. The claimed circuit split relies more
on factual differences among the
cases than on disagreement about
application of the law.
Petitioner’s main point of appeal is that
there is a split among the Circuit Courts of
Appeals on whether the intent-to-harm standard
or deliberate indifference standard is applied to
particular cases of high-speed driving by police.
This seeming court split is illusory, as the
differing decisions reached in these cases is based
on factual differences and not on the application
of different standards of culpability. Every case

9
cited by Petitioner would have had a similar
result regardless of which Circuit Court it was in.
This issue requires a close analysis of each case
cited by Petitioner making up the alleged circuit
split.
There are some differences in the way that
the Third, Fourth, Seventh, and Tenth Circuits
analyze police high-speed driving cases
compared to the analysis performed by the
Eighth and Ninth Circuits. Despite these
distinctions, however, these differing analyses
have not led to disparate results.
Eighth and Ninth Circuits
It is important to begin with the circuits
that Petitioner alleges are outliers on this issue
– the Eighth and Ninth Circuits – and compare
their analyses with the other circuits.
The Eighth Circuit, in Helseth v. Burch,
reviewed a case in which a driver passed an
officer traveling 111 miles per hour. 258 F.3d
867, 869 (8th Cir. 2001). The officer went in
pursuit, but the driver fled. Id. Officer Burch
joined the pursuit and the driver went through
stop signs, lawns, over retaining walls, and even
the wrong way down highways. Id. Burch
attempted three PIT maneuvers, but none
stopped the fleeing vehicle. Id. The driver
eventually ran a red light and collided with a
pickup truck driven by Helseth. Id. The crash
killed a passenger and left Helseth a
quadriplegic. Id. Helseth filed a § 1983 action
against Burch for conducting a dangerous
pursuit. Id.

10
The Eighth Circuit applied the clear rule
from Lewis that “in a high-speed automobile
chase aimed at apprehending a suspected
offender . . . only a purpose to cause harm
unrelated to the legitimate object of arrest will
satisfy the element of arbitrary conduct shocking
to the conscience, necessary for a [substantive]
due process violation.” Id. at 870. (quoting Lewis,
523 U.S. at 836.) The Eighth Circuit correctly
notes that Lewis holds that the intent-to-harm
standard applies to all high-speed pursuits
aimed at apprehending suspected offenders.
Helseth, 258 F.3d at 871. Deliberate indifference
is appropriate only when actual deliberation is
practical, and a high-speed pursuit is never such
a situation. Id. Applying this standard, the
Eighth Circuit held Burch did not have time for
actual deliberation. Thus, since he did not intend
to harm Helseth, there was no constitutional
violation. Id. at 872.
The Eighth Circuit next applied Lewis
outside the realm of high-speed pursuits on a
case involving two deputy sheriffs responding to
a domestic disturbance call in which a woman
was threatening to harm her three-year-old
child. Terrell v. Larson, 396 F.3d 975, 977 (8th
Cir. 2005). The call was assigned priority level
three, which was described as “very high
priority.” Id. The deputy sheriffs called in saying
they would provide backup and proceeded toward
the scene. Id. Another officer said he would also
respond, and dispatch told the deputies that they
could cancel. Id. They responded saying they
would continue anyway. Id. As they approached
an intersection, they slowed to 40 miles per hour,
but then sped up when they saw no cars coming.

11
Id. Unfortunately, they were incorrect about the
presence of cars, and when they went through the
intersection, they collided with Terrell’s car at a
speed of around 60-64 miles per hour. Id.
Recognizing that the Court in Lewis framed
its analysis of the culpability issue in fairly broad
terms, such as likening the decision to pursue a
fleeing suspect to that of the decisions that must
be made in trying to quell a prison riot. Id. at 978.
When officers decide whether to respond to an
emergency domestic disturbance call, they must
make balance many issues such as the need to
arrive on the scene quickly to quell violence,
protect any children, assist any injured, and
protecting the public at large. Id. at 979. The
Eighth Circuit noted that substantive due
process liability was much like Eighth
Amendment liability, in that it focused on a
government official’s evil intent – either criminal
recklessness if deliberate indifference applies, or
intent-to-harm if the standard in Lewis applies.
Id. at 980. “[B]ecause the intent-to-harm
standard
applies
‘when
unforeseen
circumstances demand an officer’s instant
judgment’ and ‘decisions have to be made in
haste, under pressure, and frequently without
the luxury of a second chance,” we conclude that
this issue turns on whether the deputies
subjectively believed that they were responding
to an emergency.” Id. (quoting Lewis, 523 U.S. at
853) (Internal citations omitted.)
Because the deputies were responding to a
call in which a woman was threatening to harm
a child and the call was ranked as priority level
three, the deputies believed they were
responding to an emergency. Terrell, 396 F.3d at

12
980. Thus, the intent-to-harm standard applies
and there was no constitutional violation. Id. at
980-81. The Court even went one step further
and analyzed the circumstances under the
deliberate indifference standard. Even under
this lower standard, there is not a constitutional
violation because “[t]raffic accidents of this
nature are tragic but do not shock the modernday conscience.” Id. at 981.
The Eighth Circuit further clarified its
culpability analysis in Sitzes v. City of W.
Memphis, 606 F.3d 461 (8th Cir. 2010). In this
case, Officer Wright responded to a 911 call in
which a man claimed that two people stole fiftyfive dollars ($55.00) from him in the Wal-Mart
parking lot. Id. at 464. The man then called a
second time to report that one of the robbers had
assaulted him. Id. Wright then drove on a
residential street with a 30 miles per hour speed
limit at speeds of 80-90 miles per hour without
lights or sirens. Id. At an intersection, he collided
with a car making a left-hand turn killing the
driver, Britney Sitzes, and seriously injuring her
sister, Shelby. Id. at 464-5. Officer Wright stated
in an affidavit that he believed the situation at
Wal-Mart was an emergency which required him
to drive in the manner he did. Id. at 465.
The Eighth Circuit followed the same
analysis from the previous cases but sought to
define the contours of its application of the rule
in Lewis. The Court again said that the case
would turn on an officer’s subjective belief that
they were responding to an emergency. Id. at
467. Yet the Court clarified that there is an
exception “if an official’s claim of perceived
emergency is so preposterous as to reflect bad

13
faith.” Id. (quoting Terrell, 396 F.3d at 980 n. 2.).
This is a key point that Petitioner fails to address
in her petition, in which she falsely claims that
the Eighth Circuit provides a blanket application
of intent-to-harm to all high-speed police driving
cases regardless of the circumstances. Pet. Writ
Cert. at 13-14. Though the Eighth Circuit
ultimately applied the intent-to-harm standard
in Sitzes, the Court left open the option for a court
to reject an officer’s claim of subjective belief of
an emergency. Sitzes, 606 F.3d at 469-70.
“[W]e do not understand this case to
establish a per se rule that an
officer’s self-serving affidavit will
always insulate that officer from
substantive due process liability.
Instead, we simply hold that the
plaintiffs have failed to create a
genuine issue of fact as to Officer
Wright’s subjective belief and that
this belief is not so preposterous as
to reflect bad faith on the part of
Officer Wright.”
Id. at 470. As the Eighth Circuit points out,
Wright’s belief that the situation at Wal-Mart
was an emergency “lies somewhere in the vast
middle ground” between “clear” emergencies and
“clear” non-emergencies. Id. at 469. A clear nonemergency would not shield an officer’s bad faith
claim. Id. at 470.
The Ninth Circuit borrowed the analysis
from the Eighth Circuit and applied it to a case
involving a high-speed pursuit. Bingue v.
Prunchak, 512 F.3d 1169 (9th Cir. 2008). In this
case, Las Vegas police tried to pull over a car

14
reported as stolen. Id. at 1171. The driver refused
and a chase ensued. Id. The pursuit lasted about
an hour, over 90 miles, and involved dozens of
units and a helicopter. Id. Officer Prunchak
believed that he was close enough to assist but
was not aware how many other units were
involved. Id. Prunchak activated his emergency
lights and went in pursuit. Id. Prunchak was
traveling around 100 miles per hour when he lost
control in a long-wide curve and sideswiped
Bingue’s vehicle. Id. Both vehicles spun out of
control and came to rest in the median. Id.
Luckily, neither Prunchak nor Bingue were
seriously injured. Id.
The Ninth Circuit applied the Lewis
analysis crafted by the Eighth Circuit in Helseth.
Id. at 1175-76. Using the rule developed in Lewis,
the Ninth Circuit applied the intent-to-harm
standard to all high-speed chases, or pursuits. Id.
at 1176. As Prunchak was involved in a pursuit,
the intent-to-harm standard of Lewis applies,
thus no constitutional violation occurred. Id. at
1177.
The distinction between high-speed chases
or pursuits and high-speed driving is particularly
important here. In her petition, Petitioner claims
that the crux of the split between the circuits on
culpability is that the Eighth and Ninth Circuits
“have applied the intent-to-harm standard of
Lewis to all high-speed driving by police officers,
regardless of the circumstances.” Pet. Writ Cert.
at 13-14. This is not true.
As shown in the above cases (the very
same cases cited by Petitioner as evidence of a
split), the Eighth and Ninth Circuits have only

15
applied the intent-to-harm standard to highspeed pursuits or to high-speed driving in which
the officer claimed that he was responding to an
emergency with no genuine issue of fact to
counter that claim. To say that these circuits
have applied this standard to all high-speed
driving, regardless of the circumstances, is a
gross misstatement of their case analysis.
Third Circuit
To clarify the lack of a split among the
circuits, it is important to compare the analysis
of the Eighth and Ninth Circuits with that of the
Third, Fourth, Seventh, and Tenth Circuits, as
these circuits are the ones that Petitioner asks
this Court to use as a model.
In 2018, the Third Circuit reviewed a case
in which an officer was passed by a vehicle going
in the opposite direction who committed a
summary traffic offense. Sauers v. Borough of
Nesquehoning, 905 F.3d 711, 715 (3d Cir. 2018).
The officer turned around to pursue and radioed
to police in a neighboring borough to pull the car
over if it reached their jurisdiction. Id. The officer
reached speeds of over 100 miles per hour to try
to catch the car, but lost control in a curve and
crashed into another vehicle seriously injuring
the driver and killing the driver’s wife. Id. A key
point here is that the officer was charged and
pleaded guilty to vehicular homicide, which
required proof beyond a reasonable doubt of
reckless or grossly negligent driving, and
reckless endangerment. Id.
There is no indication that the officer either
pled or stated under oath that he believed there
was an emergency. Id. at 716. A minor traffic

16
offense would not rise to the level of an
emergency even if the officer claimed differently.
As the Third Circuit rightly noted, when there is
time for careful deliberation and unhurried
judgments, deliberate indifference is the proper
standard of culpability. Id. at 717. The officer
here did not have to make a split-second decision
because he was not in pursuit of a fleeing suspect,
nor was he responding to an emergency. Id. at
718. An important note is found in Judge
Vanaskie’s concurring and dissenting opinion.
Judge Vanaskie points out that the Eighth
Circuit case of Helseth and the Ninth Circuit case
of Bingue do not apply to the conduct of the officer
in Sauers, because both cases dealt with officers
engaged in “hot pursuit of a ‘fleeing’ suspect and,
as such, were clearly governed by Lewis.” Id. at
726. He adds that Sitzes in the Eighth Circuit
also did not apply because the officer in that case
stated a subjective belief that he was responding
to an emergency. Id. at 726-27. Judge Vanaskie
correctly points out that Sitzes suggests that an
officer could not insulate himself from liability by
claiming an emergency when doing so would be
clearly false. Id. at 727.
Based on the prior analysis of the cases
from the Eighth and Ninth Circuits, it is
reasonable to conclude that they too would have
applied the deliberate indifference standard to
the actions taken by the officer in Sauers. He was
not in pursuit of the vehicle, and he did not claim
that he believed it was an emergency. Even if he
had made such a claim, it is likely, based on the
facts, that the Eighth and Ninth Circuit would
find that it fell within the realm of claims that

17
are “so preposterous as to reflect bad faith,”
Sitzes, 606 F.3d at 470.
Fourth Circuit
The Fourth Circuit recently decided a case
that involved an officer radioing for assistance
with a traffic stop. Dean v. McKinney, 976 F.3d
407, 411 (4th Cir. 2020). The Shift Supervisor
believed that the officer sounded “shaken,” and
issued a “Code 3” allowing for an emergency
response. Id. Officer McKinney responded by
activating his lights and siren and heading
toward the location. Id. at 412. The officer that
radioed for help alerted that the other units could
back down on the emergency response but
continue to his location as priority. Id. The Code
3 was cancelled by the Shift Supervisor and
Officer McKinney acknowledged the cancellation
of the Code 3 and said that he was “cut[ting] back
to normal run.” Id. Around two minutes later,
McKinney lost control in a curve and hit another
car head-on causing severe injuries. Id. A
reconstruction showed that McKinney was
traveling 83 miles per hour in a 45 miles per hour
zone. Id.
This case differs from Sauers in that Officer
McKinney claims that he believed he was
responding to an emergency. Id. at 414. The
facts, however, disagree with his stated belief.
The Code 3 was cancelled, and McKinney
acknowledged. Id. at 415. Yet he went beyond
just acknowledging, he stated that he was going
back to a normal, non-emergency status. Id. Two
minutes and fifteen seconds then elapsed
between the time McKinney said he was going to
a non-emergency status and the accident. Id. at

18
416. The evidence is clear that, at the time,
McKinney no longer believed that he was
responding to an emergency. Thus, any claim to
the contrary during litigation is preposterous on
its face. So, the deliberate indifference standard
was applied, and not intent-to-harm.
When applying the Dean facts to the
analyses of the Eighth and Ninth Circuits, it
becomes a close case as to whether the Circuits
would accept the officer’s claim of a subjective
belief of an emergency. As has been explored
previously, the Eighth and Ninth Circuits will
accept the subjective belief of an officer that he is
responding to an emergency unless the claim was
“so preposterous as to reflect bad faith,” Sitzes,
606 F.3d at 470. Dean is not unlike the facts of
Terrell where an officer was responding to a
domestic disturbance call, given priority level
three, that he believed was an emergency.
Terrell, 396 F.3d at 977. The officer was told he
could not respond, but he decided to proceed
anyway. Id. That is where the similarities end.
Even though he was given the option of not
responding, the officer in Terrell still had every
reason to believe that an emergency was ongoing
and made the decision to keep going. That is
different from the facts of Dean. Officer
McKinney contemporaneously stated he was
ending his emergency response and was
responding at a normal, non-emergency manner.
Dean, 976 F.3d at 415. His after-the-fact claim
that he was responding to an emergency is
demonstrably false. It is reasonable to conclude
that the Eighth or Ninth Circuit would apply a
deliberate indifference standard to this case, just

19
as the Fourth Circuit did, because the claim of an
emergency was clearly false.
Seventh Circuit
Earlier this year, the Seventh Circuit
reviewed a case in which an officer rushed to a
traffic stop to which he was not invited. Flores v.
City of S. Bend, 997 F.3d 725 (7th Cir. 2021). Five
officers were part of a team (known as the
Hipakka team) that was assigned to the
northwest part of the city of South Bend. Id. at
728. This team consisted of two patrolling officers
and three others that waited until called for
assistance. Id. The patrolling officers radioed
that they spotted a speeding vehicle and planned
to make a traffic stop. Id. They did not seek
assistance either from the other members of their
team or any other officer. Id. All indications
pointed to this being a routine traffic stop. Id.
Officer Gorny, who was not a member of the
Hipakka team, decided to assist with the stop
despite not being requested. Id. He then sped
through a residential neighborhood at 78 miles
per hour in a 30 miles per hour zone. Id. He then
turned onto Western Avenue and sped up to
about 98 miles per hour. Id. He reached an
intersection
with
an
obstructed
view,
disregarded the red light, and crashed into Erica
Flores’s car, killing her. Id.
There is no indication that Officer Gorny, at
any time, claimed that he believed that he was
responding to an emergency. Nor is there any
indication in the facts that an emergency was
occurring. Another officer was merely performing
a routine traffic stop. Thus, the Seventh Circuit
applied the deliberate indifference standard. Id.

20
at 729-30. The Court rightly points out that
Officer Gorny’s actions were “unjustified by any
emergency or even an order to assist” Id. at 730.
By this statement about the possibility of
justification by emergency, the Seventh Circuit is
allowing for times when the high-speed driving of
an officer may be justified by the presence of an
emergency. That would put the Seventh Circuit
in line with the cases in the Eighth Circuit
discussed above.
It would be reasonable to conclude that the
Eighth and Ninth Circuits would also apply the
deliberate indifference standard in this case.
Gorny never claimed that he had a subjective
belief that he was responding to an emergency.
Even if he had, the facts reflect that this was
simply a routine traffic stop that he was not
asked to assist. Any potential claim of emergency
by Gorny would have failed.
Tenth Circuit
The Tenth Circuit has reviewed two cases in
which they apply the deliberate indifference
standard. In the first, an officer was trying to
catch up to a vehicle suspected of driving away
from a gas station without paying for about
$30.00 of gas. Green v. Post, 574 F.3d 1294, 1296
(10th Cir. 2009). The officer drove through an
intersection, facing a yellow light, at a high rate
of speed without lights and siren. Id. Green made
a left turn in front of him, and the officer collided
with his car. Id. Unfortunately, Green was
ejected from the car and killed. Id. at 1296-97.
The officer testified that it was not an emergency
and that he was not in actual pursuit of the
vehicle. Id. at 1297.

21
The Tenth Circuit cites approvingly to both
Lewis and Terrell (in the Eighth Circuit):
The intent to harm standard is not
limited to situations calling for
split-second reactions. Rather, it
applies whenever decisions must be
made “in haste, under pressure, and
frequently without the luxury of a
second chance.” As the Eighth
Circuit recently noted, “the intentto-harm standard most clearly
applies in rapidly evolving, fluid,
and dangerous situations which
preclude the luxury of calm and
reflective deliberation.”
Id. at 1301 (quoting Perez v. Unified Gov’t of
Wyandotte Cnty./Kansas City, Kan., 432 F.3d
1163, 1167 (10th Cir. 2005)).
Since the officer admitted that it was not an
emergency and he was not in pursuit, the Tenth
Circuit applied the deliberate indifference
standard. Green, 574 F.3d at 1302. Ultimately,
the Court held that the officer speeding through
a yellow light was mere negligence and not
enough qualify as “conscience shocking” for a
substantive due process violation. Id. at 1303.
The Court included in their consideration that
although not an emergency, catching up to the
vehicle did require a rapid response. Id.
In applying these facts to the Eighth and
Ninth Circuits’ prior analyses, it is reasonable to
conclude that they would apply the same
standard. Again, the officer clearly stated it was
not an emergency and he was not in pursuit of
the suspected offender. That would preclude the

22
use of the intent-to-harm standard from the
Eighth and Ninth Circuit cases discussed above.
These Circuit Courts have provided no avenue for
an intent-to-harm standard to be applied in nonemergency or non-pursuit situations. Like the
Tenth Circuit here, they would apply the
deliberate indifference standard.
The second case reviewed by the Tenth
Circuit involved an off-duty officer who decided
to turn on his emergency lights and drive
through ten intersections at an average speed of
66 miles per hour for no purpose but his own
business. Browder v. City of Albuquerque, 787
F.3d 1076, 1077 (10th Cir. 2015). The officer
ultimately ran through a red light and hit
another car killing one person and injuring
another. Id. The officer was charged with
reckless vehicular homicide. Id.
In the opinion, by then Judge Gorsuch, the
Court outlined that whenever the government
actor does not have the luxury of forethought,
such as responding to an emergency, specific
intent to impair a plaintiff’s fundamental right is
required. Id. at 1080.
The Court has adopted this high
standard in recognition of the fact
that in emergency situations
officers face “obligations that tend
to tug against each other”—the duty
to come to the aid of citizens in
distress and the duty to protect the
rights of those who may innocently
stand in the way—and little time in
which to deliberate their resolution.

23
Id. at 1080 (citing Lewis, 523 U.S. at 853-54, 118
S.Ct. 1708). The Tenth Circuit notes that the
officer’s actions are the very model of arbitrary or
conscience shocking. Browder, 787 F.3d at 1080.
He was acting for his personal pleasure and with
no governmental business of any kind. Id. Thus,
the Court applied the deliberate indifference
standard and held that his actions gave rise to a
claim under the Fourteenth Amendment. Id. at
1083.
It is easy to conclude that this case would
have the same result if it occurred in the Eighth
or Ninth Circuits. Not only was there no pursuit
and no emergency, but there was no
governmental business at all. Without an
emergency or a pursuit, the Eighth and Tenth
Circuits would apply the deliberate indifference
standard and find that a constitutional violation
occurred.
Petitioner’s main argument for the grant of
her writ is that there is a “clear split” among the
Circuit Courts of Appeals on whether to apply the
intent-to-harm standard or the deliberate
indifference standard to cases of high-speed
driving by police. As shown above, Petitioner
misstates the way that the Eighth and Ninth
Circuits apply the culpability standard
framework in such cases. Consistent with the
Court’s decision in Lewis, the Eighth and Ninth
Circuits only apply the intent-to-harm standard
in cases of pursuit and emergencies. Their cases
are aligned with those from the other circuits.
There is no split among the Circuit Courts and
there is no basis for this Court to review this case.

24

b. Even when applying the standard
that Petitioner prefers, the result of
this case would not change.
If this Court were to apply the deliberate
indifference standard to this case, as Petitioner
requests, the outcome would still be the same
because: (1) the Court is likely to find that
Trooper Burke was not acting with deliberate
indifference, and (2) even if a constitutional
violation were found, the law was not clearly
established in October 2016.
Deliberate Indifference
Using Petitioner’s preferred cases, we gain a
clear picture of the deliberate indifference
standard. Negligence is never enough to rise to
the level of a constitutional violation. Browder,
787 F.3d at 1080. The key to a substantive due
process violation is that the government actor’s
actions are “so egregious, so outrageous, that it
may fairly be said to shock the contemporary
conscience.” Lewis, 523 U.S. at 847 n. 8. The most
likely actions to be conscience shocking under a
deliberate indifference standard are arbitrary
that are not reasonably justified by a legitimate
governmental interest. Browder, 787 F.3d at
1080. “’Arbitrary’ actions are those performed
capriciously or at one’s pleasure and without
good reason. Id. (citing 1 The Oxford English
Dictionary 602 (2d ed. 1989); Black’s Law
Dictionary 119 (9th ed. 2009)). Length of time for
deliberation of one’s actions is a factor in
determining if the subsequent behavior is
conscience shocking. Green, 574 F.3d at 1303.

25
However, “a prolonged opportunity to deliberate”
is not enough to automatically label actions as
conscience shocking. Id. “[L]iability for deliberate
indifference . . . rests upon the luxury . . . of
having time to make unhurried judgments, upon
the chance for repeated reflection, largely
uncomplicated by the pulls of competing
obligations.” Id. (quoting Lewis, 523 U.S. at 853,
118 S.Ct. 1708) (internal citations omitted).
In applying the deliberate indifference
standard to this case, it is likely there is still no
constitutional violation alleged. Trooper Burke
did not have a prolonged period for deliberation.
Roughly 45 to 50 seconds elapsed between the
time he saw the SUV driving at a high rate of
speed with hazard lights flashing, and the time
that he made it back to his vehicle. Video. At that
point, he had to make a quick decision. Does he
simply call it in and hope that some other officer
in this large county may be able to find this
vehicle, or does he try to catch up to it and stop
what he believes is an emergently dangerous
situation? Appellant App. 155. In that moment,
Trooper Burke decided to try to catch up. To
catch up to a speeding vehicle, he also had to go
above the speed limit, which was expressly
allowed by state police policy. For most of his
journey, he faced a nearly desolate strip of road
with very few cars and none on his side of the
road. He did not have to start maneuvering
around other vehicles until he began to enter the
outskirts of Hot Springs. At that point, he had to
make another quick decision. Does he slow down
and let the SUV go, or does he continue to try and
catch up to it? In that moment, he decided to
continue while balancing his obligations to keep

26
the public at large safe with his belief that the
SUV was creating a dangerous situation. Trooper
Burke did not have to make just one decision that
night, but a cumulative series of decisions as he
preceded to catch up to the speeding vehicle.
Much like the officer in Green that was
trying to catch up to a driver suspected of not
paying for $30.00 in gas, Trooper Burke’s
situation did require a rapid response. See Green,
574 F.3d at 1303. Unlike the officer in Green,
whose actions were found not to shock the
conscience, Trooper Burke subjectively believed
he was responding to an emergently dangerous
situation. Appellant App. 155. Even if we apply
the lower deliberate indifference standard, we
cannot say that Trooper Burke’s high-speed
driving in response to an SUV traveling nearly
twice the speed limit with hazard lights flashing,
requiring a rapid response and a series of
decision unfolding in the moment, would shock
the contemporary conscience. Thus, it is likely
that this Court or any other in the nation, would
find that Trooper Burke did not violate
Petitioner’s substantive due process rights.
Clearly Established Law
A right is clearly established when the law
is so clear that all reasonable government
officials would understand that his actions
violate that right. Sauers, 905 F.3d at 718. The
“existing precedent must have placed the
statutory or constitutional question beyond
debate.” Ashcroft v. al-Kidd, 563 U.S. 731, 741,
131 S.Ct. 2074 (2011). “Existing precedent is
sufficient to place a constitutional question
beyond debate and to defeat qualified immunity

27
only if it is controlling authority in the relevant
jurisdiction, or if a robust consensus of cases of
persuasive authority in the Court of Appeals has
settled the question.” Sauers, 905 F.3d at 718
(internal quotations and citations omitted). Even
then, some actions are so obviously unlawful that
detailed, on-point precedent is not necessarily
required. Browder, 787 F.3d at 1082. As then
Judge Gorsuch writes, “it would be remarkable if
the most obviously unconstitutional conduct
should be the most immune from liability only
because it is so flagrantly unlawful that few dare
its attempt.” Id. at 1082-83.
As shown by the lengthy analysis of the
Circuit Court of Appeals cases above, the law was
not clearly established in October 2016 that an
officer driving above the speed limit without
lights and siren to catch up to a suspected
violator of the law would give rise to
constitutional liability. This is especially true if
we accept Petitioner’s own argument that there
is a split among the Circuit Courts of Appeal as
to which culpability standard to apply to such a
situation. Further, the Eighth Circuit’s own
precedent, the governing law for Trooper Burke
in Arkansas, establishes that there is no
constitutional violation if his actions responded
to a subjective belief that he was responding to
an emergency.5 Thus, even if this Court were to
find that Trooper Burke acted with deliberate
indifference and violated the substantive due
process rights of the Petitioner, he would still be

5 As long as that subjective belief was not “so
preposterous as to represent bad faith.” Sitzes, 606 F.3d
at 467.

28
entitled to qualified immunity because the law
was not clearly established in October 2016.
If the Court were to grant Petitioner’s Writ
of Certiorari, the outcome would remain the
same. The Court would likely not find that
Trooper
Burke’s
actions
“shocked
the
contemporary conscience” under a deliberate
indifference standard, and, if it did, the law was
not clearly established in October 2016. Thus, the
Petition for a Writ of Certiorari should be denied.
II.

CERTIORARI SHOULD BE DENIED ON
THE SECOND QUESTION PRESENTED
BECAUSE THERE IS NO “OBJECTIVE”
VS. “SUBJECTIVE” SPLIT AMONG THE
CIRCUIT COURTS
The Petitioner’s second issue claims that
there is a split among the Circuit Courts on
whether to use an objective test or a subjective
test in determining the existence of an
emergency in cases of high-speed driving by
police. Though there are differences in the way
that the Circuit Court’s consider this issue, the
case analysis above shows that there is not a
cognizable difference in the way the courts
analyze these cases and the result likely would
not have changed had they used a different
analysis. Thus, there is no justification for the
Court reviewing this issue.
The Petitioner seeks for this Court to adopt
the “objective test” she believes is used by the
Third, Fourth, Seventh, and Tenth Circuits, and
reject the “subjective test” used by the Eighth
and Ninth Circuits. Of the “objective test” Circuit
cases cited by the Petitioner, only one determines

29
that an officer’s claim of emergency was false.
See Dean, 976 F.3d at 416. In all of the other
cases, the officer either never claimed there was
an emergency or openly admitted that there was
no emergency. Thus, there was no reason for the
courts to even consider the issue. Petitioner
seems to create the idea that these other courts
use an objective test because the courts state that
there was no emergency, which was never plead
or alleged anywhere in the case. See Sauers, 905
F.3d 711; Flores, 997 F.3d 725; Browder, 787 F.3d
1076; and Green, 574 F.3d 1294.
In Dean, the officer does claim that he
believed he was responding to an emergency. 976
F.3d at 414. It is not clear from Dean that the
Fourth Circuit necessarily used an objective test
to determine the presence of an emergency.
While the Court considered his subjective belief,
the claim of an emergency was refuted by not
only his acknowledging of the cancellation of the
emergency code but also by stating at the time
that he was “backing down” to a non-emergency
mode. Id. at 415-16. Such clear contemporaneous
statements disprove the officer’s after-the-fact
attempts to claim that he still believed it was an
emergency. Such a self-serving statement would
likely not be accepted in Eighth or Ninth Circuits
either.
The Eighth Circuit has held that it will
accept the subjective belief of an officer that he is
responding to an emergency, but only if that
“belief is not so preposterous as to reflect bad
faith.” Sitzes, 606 F.3d at 470. There is little
doubt that the Eighth Circuit would find that the
officer in Dean’s claim of an emergency was
“preposterous” and made in “bad faith” when

30
there
are
such
clear
contemporaneous
statements to rebut such a defense. The Ninth
Circuit has also never applied either an objective
or a subjective test to a claimed emergency. The
sole Ninth Circuit case cited by Petitioner
involved a high-speed pursuit and the Court
relied on the clear standard laid out in Lewis.
The Petitioner attempts to craft a legal
fiction where the officers in the other circuits
would suddenly claim an emergency if they found
themselves in the Eighth Circuit. See Pet. Writ
Cert. at 31. There is no basis for Petitioner’s
speculation on this which should be disregarded.
Our judicial system deals in facts and the facts
are that only one non-Eighth Circuit case, Dean,
dealt with a claimed emergency and it was
rejected because it was so obviously false.
Petitioner’s attempt to manufacture a circuit
split should be ignored and their Petition for Writ
of Certiorari should be denied.
CONCLUSION
For the foregoing reasons, the Petition for a
Writ of Certiorari should be denied.

31

Respectfully submitted,

BRIAN W. RAY
Counsel of Record
MATTHEW G. FRENCH
Associate Counsel
COLLINS, COLLINS &
RAY, P.A.
912 W. 4th St.
Little Rock, AR 72201
501-603-9911
brian@ccrlawfirm.com
August 20, 2021

